f*

filed

19 “JO?1?
In The

Supreme Court of the United States
CHRIS JAYE
Petitioner,
v.
OAK KNOLL VILLAGE, et. al.
Respondents.

On Petition for a Writ of Certiorari
To the US Court of Appeals, Third Circuit

PETITION FOR A WRIT OF CERTIORARI
Chris Jaye
Pro se
PO Box 5015
Clinton, NJ 08809
caj@okvnews.com

DEC 2 8 2019

SSSiSlg®

r

i

QUESTIONS PRESENTED FOR REVIEW
1. Are the circuit judges of the Third Circuit acting in
violation of the US Constitution by providing
different due process to citizens similarly situated?
Does the doctrine of reverse incorporation apply to
the circuit judges of the Third Circuit as it pertains
to the Equal Protection Clause? And if so, does
judicial immunity apply when they violate a
citizen’s right to same?
2. Are the circuit judges of the Third Circuit violating

the separation of powers act by fading to apply the
laws as they are written and acting outside of their
jurisdictional limitations that Congress has
authorized?
3. Is it a violation of a citizen’s First Amendment

rights for circuit judges to lie in their rulings to
deprive them of a court of law (and a required
remand of their case based on facts and law)? Is it
a violation of a citizen’s First Amendment rights to
deprive them of a court to have claims adjudicated
that were properly pled by R. 8? Is it a violation of
a citizen’s First Amendment rights to be sanctioned
by a judge acting under color of law for speaking out
against their government and expressing
themselves with the words of their choosing?
4. Are judges immune from civd liability when they
misuse their power and act under color of law to aid
and further criminal acts by others who are parties
to a case?

II

TABLE OF CONTENTS
Questions Presented for Review
Table of Contents

1

n

Appendix

m

Opinions Below (18-2187)

m

Jurisdiction

IV

Constitution Provisions Involved

IV

List of Parties

1V-V

Brief Factual Background

1-4

Legal Argument

4-8

iii

APPENDIX
Second Judgement 8/1/191

Ap 1-7

Related Sanction Order 8/1/19

Ap 8-11

Censorship Order 8/2/18

Ap 13-15

Merits Panel Order 12/14/18

Ap 16

Judge Kugler Order

Ap 17-19

*The court has already denied a petition for certification in
the first appeal of this idiotic case that has never made it
beyond the pleading stage and was never appealable as of
right. 18-1374. This is now the second appeal from a second
judgment (which is unprecedented.) Note: Justice Alito
allowed for an extension to file this second petition, but did
not consolidate the two as sought by me by my application.
Although futile to have this second petition filed (at my
expense) when the initial petition and rehearing have both
been denied per the fi rst judgment, it is being filed as proof of
the oppressive tactics used by the Judicial Branch to keep
litigants out of their own courts by any means necessary
(especially when the case involves holding lawyers and judges
to account in the law).

OPINIONS BELOW
The SECOND judgment and decision of the US Court of
Appeals, Third Circuit, in this matter was entered on
August 1, 2019. It is reproduced in Appendix as Ap 1-7. A
petition for a rehearing was deprived outright due to
Petitioner’s refusal to pay the illegal sanction order which
was not appealable. A rehearing petition was filed but not

iv

docketed by order of the court. (Ap 8-11)
The original petition of this matter was docketed as 181374 with a rehearing petition that followed. This is a
second appeal judgment. Everything has been denied by
this Court (although it is disputed whether the rehearing
petition was ever viewed by the Justices at all.)
Petitioner’s filing fee was cashed on the same day the
denial was entered.

JURISDICTION
The jurisdiction of this Court is invoked per 28 U.S. Code
§ 1254.

CONSTITUTIONAL PROVISIONS INVOLVED
US Constitution, First Amendment, Seventh Amendment,
and Fourteenth Amendment.

LIST OF PARTIES
Chris Jaye, Petitioner
Oak Knoll Village Condominium Owners Association,
Inc.; Erick P. Spronck; Robert A. Stephenson; Dennis
Leffler; Kelly Jones; Jennifer Cooling; Konstantinos
Rentoulis; The Estate Of Joseph Cousins, F/K/A Joseph
Cousins (Deceased); Marilyn Cousins; Les Giese; Anne

Thornton; Maintenance Solutions, Inc., Its Agents and
Assigns; Condo Management Maintenance Corporation,
Its Agents and Assigns; RCP Management; Access
Property Management, Its Agents and Assigns; Fox
Chase Contracting, Lie., Its Agents and Assigns; Tracy
Blair; Berman, Sauter, Record & Jacobs, PC., Its Agents
and Assigns F/K/A Berman, Sauter, Record & Jacobs;
Kenneth Sauter, Esq. and CPA; Edward Berman, Esq.;
Steve Rowland, Esq.; Brown, Moskowitz & Kallen, Pc.,
Its Agents and Assigns; Hill Wallack, Its Agents and
Assigns; Marshall, Dennehey, Warner, Coleman &
Goggin, Its Agents and Assigns; Suburban Consulting
Engineers, Its Agents and Assigns; Schneck, Price,
Smith & King, LLP., Its Agents and Assigns; The Law
Offices Of Ann M. Mcguffin, Its Agents and Assigns;
Williams Transcontinental Gas Pipeline, Its Agents and
Assigns; Clinton Township Sewerage Authority, Its
Agents and Assigns; Pumping Services, Inc., Its Agents
and Assigns; J. Fletcher-Creamer & Sons, Its Agents
and Assigns; Strathmore Insurance, Its Agents and
Assigns; QBE Insurance Corporation, Its Agents and
Assigns; Community Association Underwriters Of
America, Inc., Its Agents and Assigns; Mirra &
Associates, LLC, Its Agents and Assigns; Stephenson
Associates, Inc.; Henkels and Mccoy, Inc., Its Agents and
Assigns; Frey Engineering; Gny Insurance Companies,
Its Agents and Assigns, John Does 1-20 (Fictitious
Names). Respondents.

1
BRIEF FACTUAL BACKGROUND
This is now the Petitioner’s ninth petition filed
with the US Supreme Court since 2015. Since
2012, Petitioner has been unable to obtain a day
in court, a jury or due process in either state
courts or federal court (including the US Court of
Federal Claims). Every right the law demands be
applied has been deliberately eviscerated by
judges (state and federal). The result has been
nothing but harm to the Petitioner with no
avenue for a remedy.
Despite every effort made to address the illegal
acts in play, this Court has refused to make a
ruling on the impact its unconstitutional gift of
judicial immunity has had on the constitutional
rights of the people.
This court has placed the interest of the
government (judges) over the rights of the citizen.
This it cannot do. Petitioner’s rights cannot be
negated for the benefit of government employees.
But as is proven by the record, controlling law has
never been applied (liberal pleading standards,
right to amend, rules of dismissal, finality and
jurisdiction) by the obstructionist judges (district

2

and circuit). This has been done with deliberate
intent (criminally) to ensure Petitioner is without
any day in court. This underlying case is the
latest example of another valid cases that has
been destroyed, impaired and killed without any
basis in the law.
These judges have (again) abused their positions
of power to obstruct justice, commit fraud and
illegally decide who has the right to access the
court (while cherry-picking the winners and
losers). With the decision in the record and no
right to appeal many of the rulings entered at the
appellate stage (which is another deliberate tactic
used), there is now no place to obtain a remedy for
such conduct which Marbury v. Madison clearly
demands be provided.
Illegitimate, Fraudulent, Void Rulings
These judges (working in concert to aid the
criminal acts of the Defendants) have taken an
activist role and so vastly departed from normal
judicial procedures that their rulings are devoid of
legitimacy. In addition to circuit judges never
having jurisdiction, the law does not support the
actions taken to preclude Petitioner and her
claims from any court of law.

3

These illegal acts and actions are not expected of
judges nor are they lawful. Many of the
“decisions” made have been made without due
process and cannot be appealed. Others were
done in absent the judges’ jurisdictional
authority. Those with a legal duty to ensure the
law is provided are the very government actors
(judges) violating the law. But as of right now
(and after nearly five years), the fraudulent,
lawless rulings remain as do all the cause and
effects (res judicata, preclusion, etc.).
Petitioner, as a matter of law, has had and has a
right to remedies in the law. (Marbury v.
Madison). This repeated routine of illegality
cannot be wdthout a remedy nor can her claims be
without lawful, truthful adjudication on the
merits. A right that has been wronged demands a
remedy. The expectation of judges and reliance
on judicial immunity by judges to get away with
crimes, fraud and lies by judges cannot be deemed
due process.
And as this Court knows, a citizen cannot obtain
remedies when they are being illegally precluded,
dismissed and barred from the court by Federal
Officers (judges) acting under color of law.

4
At all times, Petitioner has had standing, a valid
case with claims and was in a court with
jurisdiction. If the law was applied and facts
relied upon, Petitioner would not be without her
remedies in the law as she is.
Federal judges acting as advocates and
obstructionists violated her rights to prevent her
from obtaining remedies. This Court cannot
countenance that.
Legal Argument
Federal Judges vs. Facts and Law
This entire second appeal is not only
unprecedented, but the second judgment is as
illegal as the first. One would have thought
Justice Alito would have prevented the need for a
second petition when consolidation was sought,
but apparently the law and the rights of the
citizens to obtain equal justice in the courts do not
even matter in the highest court of the land.
Despite all the illegality, the law dictates. And
the law is clear. The Third Circuit did not ever
have jurisdiction because there was no final order
in the district court (despite the lies put forth by
Judge Michael Shipp). As evidenced by the
underlying case itself, Judge Shipp avoided

J

5

adjudicating a R. 60 motion by lies after he
dismissed my case because it was not final as he
sought to make it appear. He rigged this case and
forced into an appeal, but it was never appealable
as of right. Post-judgment rulings were not
provided which further support this to be a fact.
Following the illegal dismissal, the Third Circuit
judges refused to address all that was appealed,
deal with its own lack of jurisdiction or correct
any of the lies that were required to be corrected.
Now the Third Circuit is submitting this wellcrafted lie as a judgment to assert finality after
the fact which did not and does not exist.
Despite all the obfuscation, fraud and lies on the
part of the judges and Defendants alike, the
district court judge had no right to dismiss any of
my claims. It did not rely on Erickson v. Pardus
(as required) and did not have the legal right to
dismiss state claims with prejudice. All of this
was known and ignored by the Third Circuit
during the first appeal but not corrected. And
why? The judges did not want to remand this
case. They did not want the Petitioner to have
the right to adjudication of her claims. And they
still do not want this.

6

This second judgment is replete with lies and now
is furthered by sanctions being used as an illegal
tool of oppression. Everything that has been done
to deny clear remedies in the law. Marbury v.
Madison. And it has all been illegal.
Now the third time in two cases (16-2641), the
Third Circuit’s judges have acted without
jurisdiction. They have come up with this
emotionally-driven, fiction-based collection of
judgments, rulings, sanctions and censorships to
silence the Petitioner. They cannot do any of this
because the law does not support such censorship.
They also cannot do this because they have no
jurisdiction.
All that was required for the Petitioner to have
her case heard was a valid R. 8 pleading. This
was illegally negated by activist judges which
caused the total deprivation of Petitioner’s rights
and this entire mess that is now before you. The
judges ventured down their own path and sought
to prevent Petitioner from enjoying her First
Amendment rights. This is all illegal (and
criminal).
As it pertains to the vendetta rulings, none of
these ad hoc punishments can be supported by

7

facts or law. These punishments without any
right to appeal are simply being used as tools of
oppression which violate federal law.
As to the sanctions based on comments by the
Petitioner in pleadings and in an email, it is
beyond incredulous. Whatever happened to
the First Amendment? Did Petitioner lose her
right to freedom of expression as well as every
other First Amendment right? Judge Nygaard’s
ruling was not only utterly unconstitutional it
was completely not based in fact, devoid of due
process and wholly arbitrary.
But if this personal outrage by Judge Nygaard
proves anything, it proves that these lawless
judges never considered and were never going to
consider Petitioner’s pleadings as factual as they
were required. The goal was and remains to
hide the crimes of those they seek to aid (the
Defendants) and other judges involved in this
RICO enterprise. Federal judges have
weaponized the courts to protect those they
wish to protect from harm. .
The judges involved in this scheme of fraud have
walked themselves into a world of lies. And now
they seek to bar the Petitioner from the court

8
entirely to forever shield themselves from
accountability moving ahead. Their void rulings
cannot be used as a tool to accomplish such an
illegal task.
The crimes in play and the violation of
constitutional rights are so severe it is shocking.
Petitioner’s right to a remedy to undo all this
harm exists and can be obtained via meaningful
due process. The case demands being remanded
and adjudicated on the merits by facts and law.
Petitioner has rights. If her rights had been
upheld (including a ruhng by the proper pleading
standard and the correcting of the lies by the
district judge in the first place as required),
Petitioner would not be before you now\
The right to life, liberty and the pursuit of
happiness itself are being infringed upon by these
costs, delays, deprivations, crimes and lies of
government employees. These acts of oppression
need to stop.
s/ Chris Ann Jaye
Chris Ann Jaye

